U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Arthur Tyrone Lee v. United States of America,
S.Ct. No. 20-6688

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
17, 2020, and placed on the docket on December 23, 2020. The government’s response is due on
January 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6688
LEE, ARTHUR TYRONE
USA

ALFREDO G. PARRISH
PARRISH KRUIDENIER DUNN BOLES
GRIBBLE GENTRY BROWN
2910 GRAND AVENUE
DES MOINES, IA 50312
515-284-5737
APARRISH@PARRISHLAW.COM

